Page 2 – Julie L. Gerberding, M.D., M.P.H.


       effort to the Program. The State agency mistakenly believed that requirements for
       documenting employee compensation costs did not apply to the Program.

   •   The State agency claimed $98,987 in compensation costs for an employee who had been
       transferred out of the Program before the claim period. The State agency attributed this
       inappropriate charge to clerical error.

We recommend that the State agency:

   •   either refund $9,167,762 in compensation costs claimed for employees who may have
       worked on multiple programs or provide documentation to CDC to support these charges,

   •   refund $98,987 in compensation costs for an employee who had been transferred out of
       the Program, and

   •   follow Federal requirements for charging compensation costs to the Program.

In its written comments on our draft report, the State agency disagreed with our findings and
recommendations. The State agency said that it had followed Federal requirements for charging
compensation costs to the Program.

We maintain that the State agency did not follow the Federal requirement to provide
certifications that employees worked solely on the Program. We recognize that some of the
compensation costs for these employees may have been appropriately charged solely to the
Program. However, without the required certifications, we have no assurance that the employees
devoted 100 percent of their time and effort to the Program.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through e-mail at Lori.Pilcher@oig.hhs.gov
or Michael J. Armstrong, Regional Inspector General for Audit Services, Region I, at (617) 565-
2689 or through e-mail at Michael.Armstrong@oig.hhs.gov. Please refer to report number
A-01-07-01502.


Attachment
Page 2 – Mr. Nicholas A. Toumpas


Direct Reply to HHS Action Official:

Mr. Jerry Shingleton
Team Leader, Oversight and Evaluation
Procurement and Grants Office (MS-E-14)
Centers for Disease Control and Prevention
2920 Brandywine Road, Room 1122
Atlanta, Georgia 30341
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF NEW HAMPSHIRE’S
     BIOTERRORISM AND
  EMERGENCY PREPAREDNESS
   FUNDS FOR THE PERIOD
   JULY 1, 2003, THROUGH
       JUNE 30, 2007




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-01-07-01502
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Centers for Disease Control and Prevention (CDC) provides funds to State and major local
health departments to improve preparedness and response capabilities for bioterrorism and other
public health emergencies. From 1999 to 2005, CDC provided this funding through the Public
Health Preparedness and Response for Bioterrorism Program. Since 2005, CDC has provided
funding through the Public Health Emergency Preparedness Program. We refer to these two
funding mechanisms collectively as “the Program.”

Pursuant to applicable Federal cost principles, compensation for employees’ time and effort
under Federal awards includes wages, salaries, and fringe benefits. Charges for compensation
for employees who work solely on a single Federal award must be supported by certifications
that the employees worked solely on that program during the certification period. These
certifications must be prepared at least semiannually and signed by the employee or supervisory
official.

In New Hampshire, the Department of Health and Human Services, Division of Public Health
Services (the State agency), administers the Program. During State fiscal years (SFY) 2004–
2007 (July 1, 2003, through June 30, 2007), the State agency claimed a total of $29,702,015 in
Program funding from CDC. Compensation costs for employees who charged 100 percent of
their time and effort to the Program represented $9,575,753 (32 percent) of this total.

OBJECTIVE

Our objective was to determine whether the State agency complied with Federal requirements for
claiming compensation costs for employees who charged all of their time to the Program.

SUMMARY OF FINDINGS

During SFYs 2004–2007, the State agency did not always comply with Federal requirements for
claiming compensation costs for employees who charged all of their time to the Program. Of the
$9,575,753 in compensation costs that we reviewed, only $309,004 was allowable. This amount
was supported by signed periodic certifications stating that the employees worked solely on the
Program, and we verified that the employees worked on the Program during the claim period.
The remaining $9,266,749 in compensation costs was unallowable:

   •   The State agency claimed $9,167,762 that was not supported by the required employee
       certifications. Without such certifications and because job descriptions and our employee
       survey indicated that these employees worked on other Federal and State programs in
       addition to the Program, we had no assurance that the employees devoted full time and
       effort to the Program. The State agency mistakenly believed that requirements for
       documenting employee compensation costs did not apply to the Program.




                                                i
   •   The State agency claimed $98,987 in compensation costs for an employee who had been
       transferred out of the Program before the claim period. The State agency attributed this
       inappropriate charge to clerical error.

RECOMMENDATIONS

We recommend that the State agency:

   •   either refund $9,167,762 in compensation costs claimed for employees who may have
       worked on multiple programs or provide documentation to CDC to support these charges,

   •   refund $98,987 in compensation costs for an employee who had been transferred out of
       the Program, and

   •   follow Federal requirements for charging compensation costs to the Program.

STATE AGENCY COMMENTS

In comments on our draft report, the State agency disagreed with our findings and
recommendations. The State agency said that it had followed Federal requirements for charging
compensation costs to the Program. The State agency also said that CDC had intended Program
funds to be used for the dual purpose of enhancing public health infrastructure while building
public health emergency preparedness and bioterrorism readiness and that efforts that benefited
other public health programs were consequently appropriate and allowable under the Program.

We have included the State agency’s comments, except for numerous enclosures, as the
Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the State agency did not follow the Federal requirement to provide
certifications that employees worked solely on the Program. We recognize that some of the
compensation costs for these employees may have been appropriately charged solely to the
Program. However, without the required certifications, we have no assurance that the employees
devoted 100 percent of their time and effort to the Program. We also maintain that CDC did not
intend for the Program to fully fund employees’ activities that were covered under other funding
sources, nor did CDC waive Federal requirements for documenting and allocating employee
compensation costs.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Preparedness for Bioterrorism and Other Public Health
                Emergencies................................................................................................1
              Requirements for Charging Employee Compensation Costs
                to Federal Awards .......................................................................................1
              New Hampshire Division of Public Health Services.....................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................1
               Objective ........................................................................................................1
               Scope..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          FEDERAL REQUIREMENTS..................................................................................3

          UNALLOWABLE CLAIMS FOR EMPLOYEE COMPENSATION .....................4
              Employees With Potentially Split Job Duties................................................4
              Employee Transferred Out of the Program....................................................4

          STATE EXPLANATION..........................................................................................5

          RECOMMENDATIONS...........................................................................................5

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE.............................................................................................................5
               Certifications..................................................................................................5
               Job Descriptions.............................................................................................6
               Surveys...........................................................................................................7
               Intent of Program ...........................................................................................8
               Transferred Employees ..................................................................................9

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Preparedness for Bioterrorism and Other Public Health Emergencies

The Centers for Disease Control and Prevention (CDC) provides funds to State and major local
health departments to improve preparedness and response capabilities for bioterrorism and other
public health emergencies. From 1999 to 2005, CDC provided this funding through the Public
Health Preparedness and Response for Bioterrorism Program. Since 2005, CDC has provided
funding through the Public Health Emergency Preparedness Program. We refer to these two
funding mechanisms collectively as “the Program.”

Requirements for Charging Employee Compensation Costs to Federal Awards

Pursuant to applicable Federal cost principles, compensation for employees’ time and effort
under Federal awards includes wages, salaries, and fringe benefits. Charges for compensation
for employees who work solely on a single Federal award must be supported by certifications
that the employees worked solely on that program during the certification period. These
certifications must be prepared at least semiannually and signed by the employee or supervisory
official. In addition, the distribution of compensation for employees who work on multiple
activities or cost objectives must be supported by personnel activity reports or equivalent
documentation.

New Hampshire Division of Public Health Services

In New Hampshire, the Department of Health and Human Services, Division of Public Health
Services (the State agency), administers the Program. Through an agreement with the State
agency, employees from the Departments of Safety and Environmental Services also work on the
Program.

During State fiscal years (SFY) 2004–2007 (July 1, 2003, through June 30, 2007), the State
agency claimed a total of $29,702,015 in Program funding from CDC. For each year of this
period, between 50 and 58 employees charged 100 percent of their time and effort to the
Program. Compensation costs for these employees represented $9,575,753 (32 percent) of all
Program costs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal requirements for
claiming compensation costs for employees who charged all of their time to the Program.




                                               1
Scope

We reviewed the $9,575,753 in compensation costs that the State agency claimed during
SFYs 2004–2007 for employees who charged 100 percent of their time and effort to the
Program. We limited our review of internal controls to the process that the State agency used to
claim employee compensation costs.

We performed our fieldwork from July 2007 through February 2008 at the State agency in
Concord, New Hampshire.

Methodology

To accomplish our objective, we:

       •    reviewed applicable Federal regulations, cooperative agreements between CDC and the
            State agency, grant award terms and conditions, grant application documents, and New
            Hampshire’s cost allocation plan;

       •    reviewed the State’s chart of accounts, related descriptions, and accounting records to
            determine the materiality of cost elements;

       •    compared compensation costs that the State agency claimed for each SFY with
            compensation costs for each employee identified on the budget application that CDC
            approved for each budget year in the cooperative agreement;

       •    requested and reviewed signed timesheets or completed certifications to support
            compensation costs that the State agency claimed for employees who charged 100 percent
            of their time and effort to the Program;

       •    in the absence of completed certifications, analyzed detailed job descriptions for all
            employees who charged 100 percent of their time and effort to the Program and requested
            that CDC staff also review these job descriptions;

       •    surveyed 38 of the 50 1 current employees who charged 100 percent of their time and
            effort to the Program in 2007 to determine whether other Federal or State grants or
            programs had benefited from their time and effort; and

       •    discussed our findings with CDC and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

1
    Only 38 employees were available at the time of our survey.


                                                           2
                         FINDINGS AND RECOMMENDATIONS

During SFYs 2004–2007, the State agency did not always comply with Federal requirements for
claiming compensation costs for employees who charged all of their time to the Program. Of the
$9,575,753 in compensation costs that we reviewed, only $309,004 was allowable. This amount
was supported by signed periodic certifications stating that the employees worked solely on the
Program, and we verified that the employees worked on the Program during the claim period.
The remaining $9,266,749 in compensation costs was unallowable:

   •   The State agency claimed $9,167,762 that was not supported by the required employee
       certifications. Without such certifications and because job descriptions and our employee
       survey indicated that these employees worked on other Federal and State programs in
       addition to the Program, we had no assurance that the employees devoted full time and
       effort to the Program. The State agency mistakenly believed that requirements for
       documenting employee compensation costs did not apply to the Program.

   •   The State agency claimed $98,987 in compensation costs for an employee who had been
       transferred out of the Program before the claim period. The State agency attributed this
       inappropriate charge to clerical error.

FEDERAL REQUIREMENTS

Federal cost principles applicable to States, now codified in regulation (OMB Circular A-87,
Att. B, § 8(a)(3) (2 CFR pt. 225, App. B, § 8(a)(3))) state: “Compensation for personnel services
includes all remuneration, paid currently or accrued, for services rendered during the period of
performance under Federal awards, including but not necessarily limited to wages, salaries, and
fringe benefits. The costs of such compensation are allowable to the extent . . . that the total
compensation for individual employees . . . [i]s determined and supported as provided in
subsection h.”

Subsection 8.h states:

       (3) Where employees are expected to work solely on a single Federal award or
       cost objective, charges for their salaries and wages will be supported by
       periodic certifications that the employees worked solely on that program for the
       period covered by the certification. These certifications will be prepared at least
       semi annually and will be signed by the employee or supervisory official having
       first hand knowledge of the work performed by the employee.

       (4) Where employees work on multiple activities or cost objectives, a distribution
       of their salaries or wages will be supported by personnel activity reports or
       equivalent documentation . . . .




                                                3
UNALLOWABLE CLAIMS FOR EMPLOYEE COMPENSATION

Employees With Potentially Split Job Duties

The State agency claimed compensation costs totaling $9,167,762 that were not supported by
required certifications that the employees worked solely on the Program during the claim period.
The job descriptions for these employees indicated that they worked on multiple activities,
including some that benefited the Program.


                                 Example: Library Associate

 The job description for the library associate position stated that the employee “[o]versees the
 Office of Community Public Health (OCPH) institutional reference and lending library for the
 Community Public Health Development Program.” The job description identified numerous
 responsibilities in addition to maintaining and providing information on the Program,
 including:

     •   assisting all OCPH agency programs;

     •   maintaining library policy and recommending new policies and procedures for day-to-
         day library operation; and

     •   maintaining written and verbal communication with educators, health and human
         service professionals, and State educators of library resources.



In response to our survey, the employee who held the library associate position reported that her
work benefited 45 Federal and State grants or programs, including Federal grants from the Food
and Drug Administration (FDA) and the U.S. Departments of Agriculture and Education, as well
as other CDC grants and State-funded grants and programs. However, the employee charged
100 percent of her time and effort to the Program.

Likewise, our survey of 37 other current employees who charged 100 percent of their time to the
Program in 2007 found that 22 employees acknowledged working on at least one other Federal
or State grant or program. Although the 15 other employees whom we surveyed stated that they
worked solely on the Program, the employees’ detailed job descriptions indicated that they
worked on at least one other Federal or State project. Because the State agency did not obtain
the required certifications, we had no assurance that the Program received full time and effort
from employees who charged the Program for 100 percent of their time and effort.

Employee Transferred Out of the Program

The State agency claimed $98,987 in compensation costs for an employee who had been
transferred out of the Program before the claim period. Thus, these costs were unallowable.



                                                4
STATE EXPLANATION

During our audit, State agency officials told us that they had not used their established internal
controls to ensure that employees who charged 100 percent of their time to the Program certified
their time charges. 2 According to the officials, they believed that the intent of the Federal
legislation that established the Program was to (1) build a bioterrorism response capacity and
(2) rebuild the country’s public health infrastructure by filling gaps in State and local public
health systems. State officials thus concluded that the Program was designed to be integrated
with existing operational units and that the requirements for documenting and allocating
employee compensation costs did not apply to the Program. However, CDC did not waive
Federal requirements for documenting and allocating employee compensation costs, and the
State had no authority to unilaterally decide that such requirements did not apply to the Program.

State agency officials said that the costs charged to the Program for the employee who no longer
worked on the Program were attributable to clerical error.

RECOMMENDATIONS

We recommend that the State agency:

    •   either refund $9,167,762 in compensation costs claimed for employees who may have
        worked on multiple programs or provide documentation to CDC to support these charges,

    •   refund $98,987 in compensation costs for an employee who had been transferred out of
        the Program, and

    •   follow Federal requirements for charging compensation costs to the Program.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In comments on our draft report, the State agency disagreed with our findings and
recommendations. The State agency said that it had followed Federal requirements for charging
compensation costs to the Program and disputed our findings regarding certifications, job
descriptions, surveys, the intent of the Program, and transferred employees. We summarize and
respond to the State agency’s comments below and include the comments, except for numerous
enclosures, as the Appendix.

Certifications

State Agency Comments

In its comments on our finding that employees who charged 100 percent of their time to the
Program did not have the required employee certifications, the State agency maintained that the
2
 Of the three State departments whose employees worked on the Program, only one (Environmental Services) used
its system for ensuring that employees correctly recorded and certified their time and effort.


                                                      5
work that these employees performed could be sufficiently documented through daily sign-in
sheets, job numbers, and the State agency’s Human Resources Change Form (Form 170), which
it believed together were equivalent to a certification. The State agency said that it used job
numbers to ensure that all expenses, including compensation costs for employees, were paid
using the appropriate funding source. The State agency also said that the job number appears on
the Form 170, which is signed by both a financial manager and the appointing authority
(supervisor) and used to record changes to a position, such as increases or decreases in funding.

The State agency noted that it was in the process of implementing a single-sheet certification to
be completed by every employee charged to a single cost objective on a semiannual basis.

Office of Inspector General Response

We disagree that daily sign-in sheets, job numbers, and Form 170 constitute the equivalent of a
certification. The sign-in sheet is merely an attendance sheet that lists employees’ names and the
dates and times that they arrived at and left the jobsite. The sheet contains no job numbers. All
employees who charged 100 percent of their time and effort to the Program were assigned the
same job number even though they performed a wide variety of activities. Therefore, the job
number is not an accurate reflection of an employee’s daily activity. In addition, the Form 170,
which is used primarily to identify changes within a position (e.g., new hire, promotion, or
transfer), is not completed periodically and does not require employees to certify that they devote
100 percent of their time to a particular program. As a result, we maintain that the State agency
did not follow Federal requirements for providing certifications that an employee worked solely
on a specific Federal grant award.

We recognize that the compensation costs for some of these employees may have been
appropriately charged solely to the Program. However, without the required certifications, we
have no assurance that the employees devoted 100 percent of their time and effort to the
Program. Accordingly, the State agency should either refund $9,167,762 or provide
documentation to CDC so that CDC can determine what portion of the claim is allowable.

Job Descriptions

State Agency Comments

The State agency said that we relied heavily, in some cases exclusively, on supplemental job
descriptions in concluding that employees improperly worked on other Federal and State
programs in addition to the Program. The State agency emphasized that the supplemental job
descriptions could not be relied on as an accurate indicator of the work that employees actually
performed during a particular timeframe or, more importantly, of programs that may have
benefited from the work of a particular employee.

The State agency concluded that we should not have relied on supplemental job descriptions as a
basis for a refund recommendation without performing additional investigation to determine
whether the job descriptions were accurate and representative of the actual jobs. The State
agency said: “Neither the employees nor their supervisors were interviewed by OIG. Therefore,



                                                6
one can only conclude that OIG based its recommendation that New Hampshire refund 100% of
the compensation claimed for these employees, only on a review of the corresponding
[supplemental job descriptions].” The State agency offered several examples of employees who
were listed on its chart as working only on bioterrorism but whose salaries were included in the
questioned costs, presumably based on the job descriptions.

Office of Inspector General Response

We based our finding on the State agency’s lack of required certifications, not on the
supplemental job descriptions. Without these certifications or some other type of time-and-effort
reports, we had no assurance that employees who charged 100 percent of their time and effort to
the Program worked solely on the Program. We reviewed the job descriptions to determine
whether they supported the 100-percent compensation charges. However, we were unable to
make these determinations because of the broadness of the job descriptions and the number of
potentially benefiting programs.

Surveys

State Agency Comments

The State agency said that our supplemental surveys of State agency and Department of Safety
(DOS) employees did not support a determination that the employees’ compensation costs were
improperly charged to the Program because the charts used to conduct the surveys were
inconsistent, ambiguous, insufficiently detailed, and not accompanied by interviews or other
followup. As one example, the State agency noted that, because the charts did not specify a time
period, an “x” might mean that a benefit to another program “occurred on a given day or longer
than a day, during the audit period or the then present moment.”

The State agency maintained that, because of these shortcomings, the employees who completed
the charts did so based on differing best guesses as to the meaning of the ambiguous questions.
The State agency said that, despite this lack of clarity, we interpreted a mark in a column labeled
something other than “Bioterrorism” as an acknowledgment of an employee’s having worked on
another Federal or State program and that this determination was potentially the basis of our
request for repayment of compensation for the entire 4-year audit period.

The State agency noted that CDC had directed all States to closely coordinate their public health
emergency preparedness activities with those of public safety and emergency management
agencies, particularly with respect to activities funded by the Department of Homeland Security
and/or other Federal agencies. Thus, the State agency maintained that conducting emergency
drills and other exercises and responding to naturally occurring events such as snowstorms and
floods was a goal or critical capacity activity required under the Program. The State agency
provided several examples and two affidavits from employees to support its assertion that the
work activities indicated on the charts were allowable and, in some instances, mandated under
the Program.




                                                 7
Office of Inspector General Response

We did not base our finding on the results of our survey. Instead, we based our finding on the
State agency’s lack of signed, periodic certifications required to support its claim. Because of
the lack of certifications, we requested timesheets or other time-and-effort reporting
documentation. State agency managers advised us that they did not have timesheets and did not
track employee effort for their various grants. We then looked at job descriptions, but because
the job descriptions did not appear to support 100-percent time and effort charged to the
Program, we requested that the State agency develop a spreadsheet that identified all Federal,
State, and other grants and programs on which all current 100-percent Program employees at the
State agency worked during our audit period.

We were unaware that employees were confused about the survey. Throughout the audit, we had
numerous meetings with State agency and DOS managers and were in daily contact. At no time
did any of the managers relate any questions or concerns regarding the requested information or
indicate that their employees were confused about the time period of the activities or any other
aspects of the charts. The State agency’s concern that our charts did not request the amount of
time that employees devoted to other grants and programs (“on a given day or longer than a
day”) supports our position that certifications were needed to determine whether employees who
charged the Program for 100 percent of their time and effort actually worked solely on the
Program.

Although some of the activities that the State agency cited may be allowable under the Program,
they could also be charged to other benefiting State and Federal programs, including the State
food safety program, Homeland Security, and FDA. Our position is supported by the affidavits
that the State agency provided, which indicated that the employees devoted part of their time and
effort to other benefiting programs. Because the State agency did not have the required
certifications and did not allocate employees’ time and effort, we could not determine the extent
to which these employees’ compensation costs may be allowable under the Program.

Intent of Program

State Agency Comments

The State agency said that the Federal legislation that created the Program “set forth the ‘dual
purpose’ intent to build a bioterrorism response capacity and to rebuild the country’s public
health infrastructure and fill in gaps in state and local public health systems.” The State agency
maintained that CDC, in its ongoing discussions with the States, continued to validate the
important dual purpose of building public health infrastructure with Program funds. The State
agency remarked that it had applied for the Program with this dual purpose in mind.

The State agency also said that it had “fully disclosed and been transparent in its activities to
CDC under the Grant” and that CDC had “monitored New Hampshire’s grant activities and
consistently found New Hampshire to be in compliance.” Thus, according to the State agency, to
the extent that New Hampshire had enhanced its public health infrastructure while building




                                                 8
public health emergency preparedness and bioterrorism readiness, this consequence was
appropriate and allowable under the Program.

Office of Inspector General Response

CDC may have intended the Program funds to help build public health infrastructure and
increase coordination between CDC and other emergency preparedness programs and grants.
However, we are confident that CDC did not intend for the Program to fully fund employees’
activities that were covered under other funding sources.

In response to the State agency’s assertion that CDC was fully aware of the activities being
funded through the Program, we note that the job descriptions that the State agency provided to
CDC contained only the portions of the employees’ positions that related directly to the Program.
CDC approved the funding level for these positions based on the limited information that it
received from the State. When we provided CDC with some of the full job descriptions, CDC
indicated that the compensation costs for these positions should have been allocated and not
charged solely to the Program. Furthermore, CDC did not waive Federal requirements for
documenting and allocating employee compensation costs, and the State agency had no authority
to decide that such requirements were not applicable to the Program.

Transferred Employees

State Agency Comments

In its comments on the recommendation in our draft report to refund $114,135 in compensation
costs for two employees who had been transferred out of the Program, the State agency said that
the erroneous charges were the result of clerical errors and that it had already reimbursed CDC
for the related funds. The State agency maintained that we should remove this recommendation
from our report.

Office of Inspector General Response

During our audit, we found $114,135 in charges for compensation costs for two employees who
no longer worked on the Program. The State agency agreed that compensation for these two
employees had been improperly charged to the Program. The State agency refunded
compensation totaling $15,147 for one of these employees during our audit period, so we have
removed the $15,147 from the finding and recommendation in our final report. However,
because the State agency did not refund the remaining $98,987 for the second employee until
after our audit period, we have retained the finding and recommendation for that amount in our
final report.




                                               9
APPENDIX
APPENDIX
Page 1 of 15
APPENDIX
Page 2 of 15
APPENDIX
Page 3 of 15
APPENDIX
Page 4 of 15
APPENDIX
Page 5 of 15
APPENDIX
Page 6 of 15
APPENDIX
Page 7 of 15
APPENDIX
Page 8 of 15
APPENDIX
Page 9 of 15
 APPENDIX
Page 10 of 15
 APPENDIX
Page 11 of 15
 APPENDIX
Page 12 of 15
 APPENDIX
Page 13 of 15
 APPENDIX
Page 14 of 15
 APPENDIX
Page 15 of 15
